                                                                                                                  -




                                                   NATIONAL SCIENCE FOUNDATION
.
@
f                                                   OFFICE OF INSPECTOR GENERAL

  .
  4
                                                      OFFICE OF INVESTIGATIONS

    0                                        CLOSEOUT MEMORANDUM
      'INo

Case Number: A-06120060                                                                        Page 1 of 1



         We received an allegation from the complainant1that the subject2 falsified results by not
         representing his research accurately in a published paper.3 The complainant provided a detailed
         explanation of his allegation. Our review showed that the complainant's concerns focused on the
         subject's interpretation of results and selection of samples in a field of science that relied heavily
         on observational evidence. In addition, we noted that the subject indicated in his publication
         how he gathered his information, presenting his results and making his interpretations from these
         results. Finally, the complainant published in a prestigious journal his concerns about some of
         the subject's results and interpretations: to which the subject's team responded in the next
         volume of the same journal.' This showed clearly that a disagreement between the complainant
         and the subject existed over the subject's samples selection and use of these samples in making
         interpretations.

         We determined that there was no evidence to support the allegation that the subject falsified the
         information he presented or that he presented his research inaccurately. This case is closed and
         no hrther action will be taken.




NSF OIG Fonn 2 (1 1/02)                                                                   L
